FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INCORPORATED
835 Georgia Avenue, Suite 600
Chattanooga, Tennessee 37402
Assistant Federal Defenders:
Myrlene R. Marsa
Gianna Maio
Erin Rust
Presita West
Joe Austin
J. Damon Burk

Phone (423) 756-4349
Fax (423) 756-4345

BY U.S. MAIL AND ELECTRONIC FILING
December 2, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

McClurg et al. v. United States, No. 20-6220

Dear Mr. Harris:
This letter is to update the Court regarding a development relevant to the petitioners’
pending joint petition for certiorari. The petitioners here ask the Court to either grant review in
their case or hold their petition pending the Court’s review in another case, Yerkes v. United States.
Yerkes is a direct appeal addressing the same broad issue presented here—whether a state statute
that defines burglary in a way that is broader than how the majority of states and the common law
defined burglary in 1986 qualifies as “generic burglary” under the Armed Career Criminal Act, 18
U.S.C. § 924(e). A decision in favor of the petitioner in Yerkes would require remand in petitioners’
case as well.
At the time the joint petition for certiorari was filed in this case, Mr. Yerkes had not yet
filed his petition. It has since been filed and is docketed as case number 20-6450.
The petitioners respectfully request that this letter be circulated to the Court ahead of its
conference in this case scheduled for this Friday, December 4, 2020.

Sincerely,
FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.
By:

cc:

Jeffrey B. Wall, Esq. (by U.S. Mail)

s/ Erin Rust
Erin Rust
Assistant Federal Defender

